 INSPECTOR GENERAL’S
 STATEMENT SUMMARIZING THE
 MAJOR MANAGEMENT AND
 PERFORMANCE CHALLENGES
 FACING THE DEPARTMENT OF THE
 INTERIOR




Report No.: X-SP-MOI-0008-2010   October 2010
                 OFFICE OF
                 INSPECTOR GENERAL 

                 U.S.DEP     THE T OF THE INT R 0

                                                                                      OCT 15 2010
Memorandwn

To: 	            Secretary Salazar

From: 	          Mary L. Kendall
                 Acting Inspector
                                     ~ ~cfJj
                                    Genera~-'" 1- . ­        I




Subject: 	       Inspector General's Statement Summarizing the Major Management and
                 Performance Challenges Facing the Department of the Interior
                 (Assignment No. X-SP-MOI-0008-20 I 0)

       In accordance with the Reports Consolidation Act of2000, we are submitting what we
have determined to be the most significant management and performance challenges facing the
Department of the Interior (Department). The challenges listed are for inclusion in the
Department's Performance and Accountability Report for fiscal year 2010. They reflect what the
Office ofInspector General considers significant impediments to the Department's efforts to
promote economy, efficiency, and effectiveness in its bureaus' management and operations.

          The top management and performance challenges are:

             •   Outer Continental Shelf Energy Oversight
             •   Financial Management
             •   Information Technology Security
             •   Health, Safety, and Maintenance
             •   Responsibility to Indians and Insular Areas
             •   Resource Protection and Restoration
             •   Revenue Collections
             •   Acquisition Management

        These issues are important to the Department's mission, involve large expenditures,
require significant management improvements, or involve significant fiduciary relationships. We
believe the Department could enhance and improve its overall operational effectiveness and
efficiency by developing strategies to identify and correct deficiencies, especially in activities
that cut across bureau and program lines.

Attachment




                                O ffi ce of Inspector G eneral   I Washington.   DC
                                                                             Attachment (Revised)

      Office of Inspector General Update Regarding the Top Management
                  Challenges for the Department of the Interior

1. Outer Continental Shelf Energy Oversight
The Deepwater Horizon tragedy of April 20, 2010, took 11 lives, caused the destruction of an
offshore drilling rig, led to the release of approximately 4.9 million barrels of oil, and
significantly disrupted the Gulf of Mexico (GOM) region’s economy and environment.
Recognizing that oil and gas remain an important part of the Nation’s energy economy, the
Government is changing laws, regulations, and organizational structures in an effort to prevent
such catastrophic occurrences in the future. The accident and ensuing spill challenged 40 years
of the generally accepted belief that offshore operations could occur safely under existing
regulation and oversight.

Offshore oil and gas development constitutes approximately 30 percent of domestically produced
oil and 11 percent of the domestic natural gas supply. The vast majority of this production occurs
in the central and western GOM. In achieving such levels of production, the GOM offshore oil
and gas industry has, in recent decades, reached farther offshore and deeper undersea. Many of
the facilities are larger, more complex, more technologically sophisticated, and more distant than
ever. Simultaneously, Government oversight of the prolific energy resources of the GOM has
become more complex and challenging.

In view of the many lessons that can and should be learned from the Deepwater Horizon
accident, the Bureau of Ocean Energy Management, Regulation and Enforcement (BOEMRE)
has the opportunity to make systemic changes that will help create a better and more effective
regulatory and oversight program. The Department of the Interior (Department) continues to
perform reviews of the responsibilities of BOEMRE including leasing, lease monitoring, and
royalty oversight. Reviews should assess whether some of the duties should be restructured.

The review of Federal offshore oil and gas operations was conducted by the Outer Continental
Shelf Safety Oversight Board. The Office of Inspector General (OIG) participated in the review.
The Board’s September 1, 2010 report detailed 59 recommendations to improve operations.
BOEMRE subsequently developed an implementation plan for the recommendations. In
addition, the OIG will issue a separate report which will make additional recommendations.

2. Financial Management
The Department manages an annual appropriation of about $20 billion 1, revenues of $9 to $25
billion annually from onshore and offshore mineral leases, and $3.7 billion in funds held in trust.
By contract, the independent public accounting firm KPMG LLP completes the annual financial
audit of the Department. KPMG LLP rendered an unqualified opinion on the consolidated
financial statements of the Department for fiscal year (FY) 2009, although the Department still

               1
                   Revised to reflect the enacted FY 2010 budget.
had six significant deficiencies in internal controls over financial reporting, of which none were
considered a material weakness and five were repeated from FY 2008. In addition, KPMG LLP
identified two instances in which the Department did not comply with laws and regulations in
FY 2009, specifically the Single Audit Act Amendments of 1996 and the Prompt Payment Act.
However, the number of control deficiencies identified for the FY 2010 review to date has
significantly decreased.

The implementation of the Financial and Business Management System (FBMS) continues to be
a management challenge for the Department. FBMS has been under consideration and
implementation for at least 10 years. FBMS was supposed to be fully implemented by 2010, but
to date only three bureaus/offices have transitioned. Complete implementation is currently
estimated for 2013. The number and variety of programs across the Department make budget and
performance integration particularly difficult.

On June 28, 2010, the Office of Management and Budget (OMB) issued memorandum M-10-26,
titled “Immediate Review of Financial Systems IT Projects,” which stated that “Federal
Information Technology (IT) projects too often cost more than they should, take longer than
necessary to deploy, and deliver solutions that do not meet our business needs. Although these
problems exist across our IT portfolio, financial systems modernization projects in particular
have consistently underperformed in terms of cost, schedule, and performance.” To address these
problems, OMB launched an IT project management reform effort that required “all CFO Act
agencies to immediately halt the issuance of new task orders or new procurements for all
financial system projects pending review and approval from OMB.” OMB’s assessment of
FBMS is ongoing. The Department recently proposed revisions to the FBMS implementation
plan to address OMB’s concerns.

3. Information Technology Security
The Department’s FY 2010 budget for IT is $995 million. That budget funds the network
infrastructure, IT security, and various IT investments, which are intended to align with
Departmental mission objectives. IT supports the Department’s diverse programs meant to
protect and manage our Nation’s natural resources and cultural heritage; provides scientific and
other information about those resources; and honors its trust responsibilities or special
commitments to American Indians, Alaska Natives, and affiliated Island communities. IT
security strives to assure the confidentiality, integrity and availability of information assets.

The Department continues to employ a decentralized and fragmented IT governance framework,
which does not optimally operate or fully comply with legislation and Federal policy. Despite
some improvements and progress, decentralized management, resource gaps, disconnection from
the internet related to the Cobell v. Salazar case, a lack of centralized asset management
capability and other factors have left the Department struggling to meet information security and
privacy mandates. A lack of strategic direction in implementation of information technology
resulted in inadequate oversight even when appropriate technology exists.

The Federal Information Security Management Act of 2002 requires the Secretary of the Interior
to delegate to the Department’s Chief Information Officer (CIO) “the authority to ensure

                                                         2
compliance with the requirements imposed on the agency under this subchapter.” We routinely
found that guidance issued by the CIO was not implemented.

•   In August 2006, the CIO directed all bureaus and offices to transition to the Department’s
    remote access system by January 31, 2007. In FY 2010, we found that many bureaus still
    operate their own separate, remote access systems.

•   In June 2006, OMB Memorandum 06-16 “recommends allowing remote access only with
    two-factor authentication where one of the factors is provided by a device separate from the
    computer.” Of the users who utilize the Department’s Remote Access Solution, 78 percent
    did not use the two-factor authentication.

•   In December 2009, the CIO directed all bureaus and offices to utilize the Departmental
    Access System for on-boarding employees and contractors prior to initiating IT user access
    accounts. We found in FY 2010, not all bureaus were following this guidance.

    During 2010, our evaluations revealed:

•   Inaccuracies in IT asset inventory
•   Duplicative IT functions
•   Resistance to consolidated IT operations and management
•   A fragmented continuous monitoring program
•   Inadequate departmental oversight
•   Incomplete assessments of privacy risk

The Department launched an initiative in June 2010 called the DOI Innovation and Efficiency
Team (DIET) which currently is in the planning phase. Per the DIET charter, "this initiative was
created to identify and implement immediate and long-term solutions to realize cost savings, cost
avoidance, cost efficiencies and/or innovations across the DOI IT environment." That initiative
includes objectives directly related to its IT Security Program. As the Department moves forward
in implementing various facets of the initiative, they have the potential to address a number of IT
security challenges.

4. Health, Safety, and Maintenance
Each year, more than 500 million people visit the Department’s National parks and monuments,
wildlife refuges, and recreational sites. The Department is responsible for serving these visitors
and maintaining and protecting thousands of facilities and millions of acres of property. In some
cases, the isolation of Department lands and facilities presents vulnerabilities and makes safety
and maintenance challenging. Our work has documented decades of maintenance, health, and
safety issues that place the Department’s employees and the public at risk.

Aircraft

In February 2009, we issued a flash report discussing U.S. Fish and Wildlife Service (FWS) use
of eight Department-owned aircraft. For more than a decade, the Department has allowed these
                                                       3
aircraft to be flown over maximum takeoff gross weight according to Federal Aviation
Administration regulations and manufacturer specifications. FWS acknowledged the risks, and
has taken steps to purchase replacement aircraft.

Deferred Maintenance

The Department is responsible for roads, bridges, schools, office buildings, irrigation systems,
and reservoirs for which repair and maintenance have been postponed because of budgetary
constraints. The Department’s FY 2010 estimate to correct deferred maintenance, the
Department’s term for unfunded repair and maintenance needs, ranges from $13.0 billion to
$19.2 billion. Deterioration of assets because of uncorrected deferred maintenance poses health
and safety hazards.

Abandoned Mines

Land managed by the Department has posed hazards to the public. Many abandoned mines,
primarily in western states, pose dangerous safety and environmental hazards. In a July 2008
report, the OIG reported grave concerns to the Department regarding its failure to mitigate the
hazards posed by abandoned mines on Federal lands. As stated in our report, “Mines located
primarily in the Western States of California, Arizona, and Nevada have dangerously dilapidated
structures, serious environmental hazards, and gaping cavities — some capable of swallowing an
entire vehicle.” The Department concurred and has implemented two of the report’s three
recommendations.

Our May 2009 report on Mining Claimant Administration addressed how the Bureau of Land
Management (BLM) might be more effective in working with claim holders or claimants to
mitigate the most serious physical safety hazards. BLM is missing opportunities to enhance
public safety by neither coordinating with claimants nor actively seeking claimant assistance in
mitigating the hazards. Six of the ten report recommendations have been implemented, and the
Department is continuing to address the remaining issues.

5. Responsibility to Indians and Insular Areas
Management problems persist in programs for Indians and island communities. The Department
manages relationships with 564 Federally recognized Indian tribes, has trust responsibilities for
112 million surface and subsurface acres of land belonging to Indian tribes and individuals, and
provides education services to approximately 42,000 Indian children in 184 schools and
dormitories. The Department also has various responsibilities to seven island communities to
include four territories and three sovereign island nations. The Department provides general
administrative supervision of the relations between the U.S. government and the territories of
American Samoa, the Commonwealth of the Northern Marianna Islands, Guam, and the U.S.
Virgin Islands. For the three sovereign nations, the Department is responsible for administering
and overseeing U.S. Federal assistance provided under Compacts of Free Association. In
carrying out these responsibilities, the Department is required to coordinate with the State
Department and other Federal agencies to promote economic development and budgetary self-
reliance in these countries.

                                                        4
Indian Affairs

Responsibility to American Indians has consistently been a top management challenge for the
Department. Indian Country programs managed by the Department include Indian Trust for
Lands and Funds, Indian Education, Self-Determination, Energy and Economic Development,
Indian Gaming, and Justice Services. Approximately 25 percent of OIG investigations involve
Indian Country issues.

Recent OIG reviews disclosed needed improvements in preventing school violence and
fractionalization of land. Our February 2010 review to evaluate the quality of school safety
measures in place to prevent violence at Bureau of Indian Education (BIE) funded schools
revealed many indicators of potential violence, deficiencies in school policies aimed at
preventing violence, and substantial deficiencies in preventative and emergency safety
procedures resulting in schools being dangerously unprepared to prevent violence and ensure the
safety of students and staff. Indian Affairs (IA) concurred with the report’s four
recommendations which, if implemented, will improve safety measures in place at BIE funded
schools.

The Federal Government has long acknowledged the resulting complexity from fractionation on
Indian Trust operations. Fractionation is the result of dividing Tribal land into parcels and
allotting the parcels to individual Indians. The allotments are subsequently divided among heirs
through probate. With each generation, the amount of fractionation increases. To date, the
Department has not developed a comprehensive plan that will guide its efforts to reduce
fractionation.

The myriad problems we have uncovered portray programs that are sorely understaffed,
underfunded, and poorly managed. The OIG has identified gross program inefficiencies along
with criminal conduct at many levels of IA. The greatest obstacle to reform, however, is the
leadership vacuum that has existed for almost a decade. Assistant Secretaries have typically
served for only 6 to 18 months, which has resulted in constantly shifting priorities and messages
to Bureau employees and American Indians. The current Assistant Secretary – IA stated in his
confirmation hearing that he would consent to a 4-year commitment. This commitment should
eliminate the past leadership vacuum and ensure continuity, which will promote the
establishment of consistent priorities within Indian Affairs.

Insular Areas

The Department seeks to increase Federal responsiveness to the needs of the Insular Areas
through the Office of Insular Affairs (OIA). OIA works to improve the financial management
practices of Insular Area governments and to increase economic development opportunities
through financial and technical assistance. The FY 2010 budget for Insular Areas includes $85
million for capital improvements, operation, and technical assistance to the four U.S. territories,
$218 million for the programs of the three nations under the Compacts of Free Association, and
$177 million in tax-related payments to the U.S. Virgin Islands and Guam. 2 Overall, OIA
                2
                    Revised to reflect the enacted FY 2010 budget.
                                                                     5
annually funds Insular Area government programs focusing on education, health care,
infrastructure improvement, public sector capacity building, private sector development, and the
environment.

Unfortunately, the people of the Insular Areas are ill-served by their local governments and the
OIA. For example, our review of the funds used for security improvements at the Virgin Islands
Governor’s private residence concluded that approximately $500,000 of public funds, earmarked
by the Legislature for road repair in the Virgin Islands, were misspent. Our September 2010
report on the Virgin Islands Port Authority concluded that the Authority regularly circumvented
or inadequately documented the procurement process in the issuance of its capital improvement
projects. The problems we observed are not new, having been identified and reported on 5 years
ago.

Our reviews have consistently pointed to problems that might have been mitigated had OIA
provided adequate oversight or taken a more active approach in assisting Insular Area
governments. Numerous reviews have pointed to ongoing management and financial problems in
the Insular Areas and OIA. We identified problems in the areas of grants management, water and
wastewater systems, noncompetitive procurements, tax collection, and property accountability
and management.

We evaluated the OIA program management to determine if OIA is able to effectively assist the
Insular Area governments in gaining economic self-sufficiency and improve the quality of life
for their people. Our May 2010 report concluded that OIA’s ability to accomplish major policy
objectives in the Insular Areas is hindered by a lack of technical expertise and authority to
directly assist the Insular Areas. OIA can improve fulfilling its responsibilities in three areas:
grants management, advocacy, and performance management. The OIG is concerned that OIA,
as it is currently structured, may not be able to successfully assist the Insular Areas to improve
services in critical areas such as education, health care, and utilities. OIA concurred with the
report and cited planned corrective actions that, if implemented, should address the report’s three
recommendations. OIA received a $200,000 program increase in 2010 to hire additional
personnel to address audit concerns and expand technical assistance, training, and oversight
activities, but has yet to fill the positions.

6. Resource Protection and Restoration
The Department’s resource managers face the challenging task of balancing competing interests
for the use and protection of the Nation’s natural resources. The Department manages one-fifth
of U.S. land, including 391 National park units and 548 wildlife refuges. BLM is the Nation’s
largest land manager with responsibility for 258 million acres of land across the West, as well as
a 700 million acre onshore, subsurface mineral estate.

Wildland Fire Management

Interior’s ability to mitigate the threat of wildfire and its associated cost is of concern. The
Department recently transferred wildland fire management from BLM to the Office of Wildland
Fire Coordination in an effort to focus attention on controlling the threat of wildland fires and its

                                                          6
escalating costs. Congressional interest in wildland fire is at an all-time high. As recently as
March 2009, the GAO stated that wildfire problems facing the Nation continue to grow and
identified findings in funding and cost control. To address these concerns, the Department
completed a number of corrective actions and stated that it was developing a comprehensive fire
management “Cohesive Strategy,” consistent with recent GAO recommendations. This strategy
is expected to be completed by the end of 2011.

In response to concerns express by the Congress and OMB, the OIG assessed the Department’s
accountability through its wildland fire management programs to determine whether or not
adequate funding guidance and oversight had been provided to help wildland urban interface
areas take advantage of existing federal resources, specifically National Fire Plan grants, to
reduce fire risks. The Department's four fire agencies – BLM, NPS, FWS, and the BIA – spend
approximately one billion dollars annually to reduce wildland fire damages. Even so, the
Department’s wildland fire management programs received the lowest rating possible from
OMB's Performance Assessment Rating Tool: "Results Not Demonstrated.” The Assistant
Secretary for Policy, Management and Budget concurred with the report’s four
recommendations.

Roads Program

At the request of the Congress, OIG evaluated the Department’s roads programs at BIA, NPS,
FWS, BLM, and the Bureau of Reclamation. These five bureaus manage approximately 186,713
miles of roads that are designated for either public or administrative use. The Department of the
Interior and the Department of Transportation jointly manage three programs through the use of
memoranda of agreement. Our February 2010 report concluded that each bureau was responsible
for framing its own roads programs and that Interior exercises no centralized oversight of roads
program activities within the bureaus. For example, BIA and BLM have the two largest road
programs with respect to mileage, but do not have adequate inventories. Further, neither BIA nor
BLM exercise sufficient oversight to ensure that roads funds are being properly managed and
used for intended purposes. The resulting decentralization has led to a number of inconsistencies
and has adversely affected program transparency and efficiency, funds accountability, and, most
importantly, public safety. The Department subsequently agreed to establish a position to provide
oversight of the different roads programs.

Museum Collections

Our December 2009 report on the museum collections found that the Department is failing to
fulfill its stewardship responsibilities over museum collections second in size only to the
Smithsonian Institution. The Department manages collections that are estimated to include over
146 million items of artwork, artifacts, and other museum objects at 625 Department facilities
and at least 1,020 non-Departmental facilities. Specifically, we found widespread failure to
properly execute the three key processes required to maintain accountability over museum
collections: accessioning, cataloging, and inventorying.

These widespread accountability issues are largely due to poor program management, ineffective
oversight, poor reporting, and an insufficient allocation of resources. Many of these problems
have been documented since 1990. Although the Department developed agency-wide standards
                                                          7
for managing museum collections, bureaus are not following that guidance. Establishing
accountability over these museum collections has not been a priority for the Department. As a
result, collections are unavailable for research, education, or display and are subject to theft,
deterioration, and damage. We also found that the Department needs to take additional steps to
improve preservation practices over its museum collection. Because preservation of collections
has been neglected, countless artwork, artifacts, and other museum objects are in jeopardy. The
Department is in the process of implementing the report’s 13 recommendations for corrective
action.

7. Revenue Collections
The Department has jurisdiction over 1.76 billion acres of the Outer Continental Shelf, manages
about one-fifth of the land area of the United States, and administers 700 million acres of
subsurface minerals throughout the Nation. Almost one-third of the Nation’s domestic energy
production is generated from Department lands and waters. The Department collected royalties
of approximately $9.9 billion in 2009 and $23.4 billion in 2008. Royalties include monetary
(Royalty-in-Value (RIV)) and product (Royalty-in-Kind (RIK)). The RIK program is in the
process of being phased out. After the Deepwater Horizon tragedy, the Department began
assessment of the duties of the Minerals Management Service which had the royalty
responsibilities. The Bureau of Ocean Energy Management, Regulation and Enforcement
(BOEMRE) was established and became responsible for most of the Service’s responsibilities. In
October 2010, the responsibilities for royalty collection and oversight, specifically the Mineral
Revenue Management directorate, were transferred to the new Office of Natural Resources
Revenue (ONRR).

Our work has revealed weaknesses in the oversight and collection and management of royalties.
BOEMRE has begun to correct its Royalty Program weaknesses, but more needs to be done. For
example, our February 2009 report on nonproducing oil and gas leases concluded that a system
needs to be established allowing BOEMRE, ONRR, BLM, and BIA to communicate efficiently
and effectively regarding oil and gas leases and royalty collections. Further, improvements are
needed in the administration of non-producing oil and gas leases regarding establishing one
system for monitoring leases and working with Congress to determine the extent of monitoring
of lease development and development of a clear policy on the production of oil and gas from
Federal leases. In a March 2010 report, we concluded that BLM, BOEMRE, and ONRR need to
carry out effective oversight and management of the beneficial use gas. No royalties are assessed
on this gas and the potential royalty value of the gas was $145 million in 2008. Finally, our
March 2010 report on geothermal royalties concluded that ONRR should increase monitoring of
geothermal lessees and reevaluate the appropriateness of a 99 percent deduction allowance. The
Department generally concurred with the reports’ recommendations and is in the process of
taking corrective actions.

The Department must identify growth opportunities as it manages the public’s vast royalty and
energy resources. In February 2009, Congress passed a $787 billion spending bill, the American
Recovery and Reinvestment Act (Recovery Act), to stimulate the economy by providing jobs and
investing in the Nation’s infrastructure. The vision behind the Recovery Act is to double the
Nation's supply of renewable energy over the next 3 years, and make an enormous investment in

                                                        8
basic research funding for new energy source discoveries. To advance the vision of a clean
energy economy, the Secretary issued Secretarial Order 3285 to establish the production,
development, and delivery of renewable energy as a top priority for the Department. The order
establishes an Energy and Climate Change Task Force to lead this new agenda and to identify
specific zones of public land where Interior efforts can facilitate a rapid and responsible move to
large-scale production of solar, wind, geothermal, and biomass energy. The Department has seen
some success in its Renewable Energy Program since the Energy Policy Act of 2005, including
issuing a final rule for renewable energy on the Outer Continental Shelf and establishing
Federal/state task forces to work with individual states on proposed offshore wind activities.

8. Acquisition Management
Procurement, contracts, and grants historically have been areas subject to fraud and waste
Government-wide; managing them continues to pose a challenge. The Department procurement
and financial assistance awards in FY 2010 exceeded $5 billion, which represented over one-
third of the Department’s total budget. These awards included $4.7 billion in contracts with over
70,000 transactions, and more than $1.7 billion in Federal assistance to over 2,300 recipients.

The Recovery Act provided nearly $3 billion to the Department. The funds, received by six
bureaus, are being awarded under contracts and financial assistance agreements and are being
spent on habitat restoration, facilities and roads improvements and construction, scientific
equipment, water infrastructure in western states, and improving conditions in Indian country.

To ensure compliance with the stringent requirements of the Recovery Act, the Department
issued over ten new policies for acquisition and financial assistance, including new review
requirements for actions that were not competitive or fixed price. Bureaus increased their review
programs, and the Office of Acquisition and Property Management (PAM) conducted reviews of
actions that were non-competitive or not fixed-price. These reviews uncovered opportunities for
improved policy and guidance in a number of areas. One key area of focus for financial
assistance was on workforce training and professionalism. PAM staff worked closely with OMB
and the Office of Personnel Management on the development of a new career series for financial
assistance managers and awarding officials.

The Department’s acquisition workforce obligated the vast majority of stimulus funds in
accordance with the schedule established in the Recovery Act. This significant effort of
obligating almost $3 billion in about 19 months, in addition to executing actions to obligate
appropriated funds, placed a severe burden on the acquisition workforce. Most contract awards
involved competition and were made as fixed-price awards to minimize risk to the Government.

The Department now faces new Recovery Act challenges and must focus on the execution of the
contracts, grants and cooperative agreement to ensure that the awarded funds are used for their
intended purposes with minimal waste, fraud, or mismanagement. The acquisition workforce
must ensure proper identification of Recovery Act awards and, in coordination with the OMB,
diligently update outdated project lists to ensure transparency. The workforce must continue to
monitor whether applicable recipients of funds are reporting on FederalReporting.gov, and
bureaus must take aggressive action regarding those who fail to report. Such actions may include

                                                        9
termination of contracts or withholding of payments, as well as suspension and debarment
proceedings.

Training for contracting officers and grant managers is critical to develop the skills necessary to
effectively manage pre-solicitation planning, competition, proper selection of the contracting
method, and administration. The Department continues to make progress toward establishing a
strong suspension and debarment program to protect against fraud, waste, abuse, and the misuse
of Federal funds. In response to our recommendations, the Department committed necessary
resources to fund, establish, and staff an effective suspension and debarment program. The
Department's Debarment Program Manager and OIG's Compliance Specialist have provided
suspension and debarment training to over 300 contract and financial assistance award personnel
and other Department officials. In FY 2010, the Suspending and Debarring Official has taken 25
debarment referrals resulting in 23 debarment actions to date.

Another challenge confronting the Department is the identification and application of funds
required for justified contract change orders, especially on large construction projects, and efforts
to ensure compliance with the Davis-Bacon Act wage requirements. The Department needs to
ensure that Small Business Administration set-aside contracts are not awarded to, or performed
by, unqualified contractors.




                                                         10
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
